                     CLOSEOUT MEMORANDUM FOR M97100031

           On 9 October 1997, an NSF program director1brought an allegation of misconduct in
    science from the complainant2to OIG's attention. The complainant alleged that the subject3
    used the complainant's idea4 in the subject's NSF funded proposal5without properly citing the
    complainant or the complainant's collaborator6as its source. Although the complainant said he
    had not seen the subject's NSF proposal, he explained that he had seen the abstract and was
    concerned the subject had not cited his or his collaborator's publications to appropriately
    acknowledge the idea's origin.

           The program director told OIG that he reviewed the subject's'proposal and observed that
    the subject had cited three publications7authored by the complainant andlor his collaborator in
    the proposal about the idea. OIG's review.of two of these publications confirmed that they
,   discussed the idea. In addition, OIG noted that the discussion of the idea presented in the
    subject's proposal clearly acknowledged the complainant and his collaborator as its source.

           OIG concluded that the subject appropriately cited the origin of the idea in the NSF
    proposal. There is no substance to the allegation that the subject used the complainant's idea
    without proper citation.

           This inquiry is closed and no further action will be taken.

    cc: Staff Scientist, Investigations, AIG Oversight, Attorney, IG




                                             Footnotes Redacted




                                              Page 1 of 1
